      AUDIT OF GSA FLEET’S
   LOSS PREVENTION PROGRAM
  FEDERAL ACQUISITION SERVICE
REPORT NUMBER A060116/F/5/V07002
        FEBRUARY 8, 2007
                            AUDIT OF GSA FLEET’S
                         LOSS PREVENTION PROGRAM
                        FEDERAL ACQUISITION SERVICE
                      REPORT NUMBER A060116/F/5/V07002


                               TABLE OF CONTENTS

                                                                PAGE

REPORT LETTER                                                      1

INTRODUCTION                                                       2

     Background                                                    2

     Objectives, Scope and Methodology                             2

RESULTS OF AUDIT                                                   4

     Brief                                                         4


     Findings and Recommendations                                  4

             Finding 1- Improving the Loss Prevention Program      4

             Recommendation                                        8

             Finding 2- Assuring All Voyager Transactions Are
                        Subject to Review                          9

             Recommendation                                       10

     Internal Controls                                            10

APPENDICES

     A. Management’s Response to the Draft Report                 11

     B. Report Distribution                                       12
                             AUDIT OF GSA FLEET’S
                          LOSS PREVENTION PROGRAM
                         FEDERAL ACQUISITION SERVICE
                       REPORT NUMBER A060116/F/5/V07002

                                   INTRODUCTION

Background

GSA Fleet (Fleet) operates over 200,000 vehicles it provides to most customers under
full service leases. Fleet is responsible for fuel and maintenance for the vehicles it
furnishes under these agreements. It also supplies a small percentage of vehicles
under “dry leases” which place responsibility for fuel and related charges with the
customers. For the vehicles under full service agreements, Fleet provides charge cards
to purchase fuel, oil and related services, and Fleet pays the charges. Customers are
limited to purchases of $100 per charge on these cards.

Fleet’s full service agreements make it unique because leases of this type are not
common in the vehicle leasing industry. However, because the charge cards are widely
accepted and can easily be used for improper purchases, Fleet must closely monitor the
charges.

Both for the convenience of its customers and simplification of its payment procedures,
Fleet has migrated more and more vehicle operating payments to the Voyager charge
card, the card provided by its current fleet card contractor. In FY 2006 Fleet paid more
than 8.7 million purchases totaling approximately $405 million with the Voyager card.
Migration to the fleet card has also allowed Fleet to automate and streamline its
operations, and improve its ability to track purchases and vehicle operating costs.

Along with the inherent vulnerability to abuse associated with charge cards, the data
Fleet had been utilizing to evaluate Voyager invoices contained some risk because
Fleet could not verify all charges were available for review. When Voyager submitted
invoices to GSA, it also posted the detailed charges in Fleet Commander, its on-line
database accessible to Fleet personnel. Fleet personnel used the Fleet Commander
data to evaluate the transactions included in the daily invoices. The weakness with this
process was Fleet had no practical way to verify Voyager posted all the transactions it
billed.

Because of its increased reliance on charge cards, Fleet requested the audit to help
assess whether its loss prevention procedures effectively monitor these transactions.

Objectives, Scope and Methodology

The objectives of the audit were to determine:

   1. Has Fleet established effective loss prevention procedures?



                                           2
   2. Do the procedures assure all Voyager charges are subject to review?

In order to evaluate the program, we visited Fleet’s Central Office and field locations in
the Northeast and Caribbean Region (2), the Mid-Atlantic Region (3), the Great Lakes
Region (5), the Greater Southwest Region (7), the Pacific Rim Region (9) and the
Northwest Artic Region (10), and corresponded with the Heartland Region (6). To
prepare for the field visits we downloaded five months of Voyager and Defense Energy
Supply Center charges for these regions. We used techniques Fleet had devised as
well as additional methods to evaluate the charges, and to determine the effectiveness
of these techniques, evaluate whether field personnel were using them, and determine
whether additional techniques were needed to identify loss and abuse. The audit
fieldwork was conducted from April to September 2006. The audit was conducted in
accordance with generally accepted Government auditing standards.




                                            3
                                  RESULTS OF AUDIT

Brief

Fleet was in the process of establishing a national loss prevention program that should
enhance its ability to detect misuse and abuse and correct a number of the weaknesses
we noted. The decentralized program that was operating at the time of our audit was
applied unevenly, the detection criteria the field locations used for identifying suspect
charges varied, and the criteria identified high numbers of valid transactions (or false
positives) along with improper ones, weakening the program’s effectiveness.

Fleet also established a database to record Voyager charges and ensure they were
subject to review. The database greatly enhanced Fleet’s ability to monitor transactions
and track expenditures, but the process for ensuring the database was complete
needed strengthening.


Findings and Recommendations

Finding 1 – Improving the Loss Prevention Program

Fleet’s loss prevention program was implemented unevenly and with varying degrees of
success when it was carried out with little central coordination. The centrally
coordinated loss prevention program Fleet was developing should overcome many of
these shortcomings. However, Fleet needs more effective methods for detecting
wasteful and abusive purchases to ensure they identify and place emphasis on the
vehicles truly driving up Fleet’s operating costs, and to ensure the program’s overall
effectiveness and employees’ willingness to implement it. We believe Fleet can more
effectively detect waste and abuse by:

    •   Replacing many of the current reports of questionable charges with listings
        based on:
             o Each vehicle’s per mile operating cost compared to the norm for the
                 vehicle’s class,
             o Each vehicle’s mileage per gallon of fuel compared to the norm for the
                 vehicle’s class,
             o Retaining a very limited number of the most significant current criteria for
                 identifying questionable charges;
    •   Continuing its development of a centrally coordinated loss prevention program;
    •   Assigning to a single office the responsibility for running and distributing the
        critical questionable charges listings;
    •   Including cognizant field personnel in the resolution of questionable charges;
        and
    •   Developing a means of recording resolution action, including a means of
        showing per mile costs and fuel consumption rates determined acceptable for
        vehicles operating below the norm for a class (this should be done to prevent the


                                             4
       vehicles needlessly reappearing on subsequent exception listings when
       operating within the approved subnormal range).

Limiting efforts to high cost vehicles. We found two key components of Fleet’s Loss
Prevention Program were Fleet Commander, described above, and the Fleet
Organizational Support System (FLOSS). FLOSS is an Access program developed in-
house for combining data from multiple sources. It is used to analyze Voyager charges
in one-month groupings to detect questionable charges and to perform a number of
other helpful functions. Some of the questionable charges FLOSS can be used to
generate are the following:

      •   Food purchases
      •   Premium fuel purchases
      •   High cost fuel (see note)
      •   Fuel type mismatches
      •   Fills beyond fuel tank capacity
      •   Full service fuel purchases
      •   High cost car washes (see note)
      •   Too many car washes
      •   Miscellaneous and tax
      •   “Other”, “none”, and “towing” purchases
      •   High dollar purchases (see note)
      •   Off-hours purchases
      •   Non-powered vehicle purchases
      •   Refunds/credits
      •   Purchases against tags not in FMS
          (Note: These queries require the user to set dollar thresholds.)

It can also be used to calculate fuel consumption, but we were told the results are
frequently not accurate, in part because of the short time period covered by the data.
The volume of transactions Fleet is now processing, and the number of questionable
charges the current detection criteria generate has created a need to refine the process.
The following tables show the results of applying three of the criteria (the unleaded plus
and unleaded super both fall under the premium fuel purchases) to the June and August
2006 Voyager charges, and highlight this need:




                                            5
                             JUNE 2006 VOYAGER PURCHASES
                                        Number of  Portion of  Net Purchase Portion of Total
                 Description             Records Total Records   Amount     Net Purchases
       Food Purchases                      1,030    0.13%      $      7,916      0.02%
       Unleaded Plus Purchases            23,663    2.96%           965,894      2.46%
       Unleaded Super Purchases           12,274    1.54%           486,514      1.24%
       Overfills of 1/2 gal. or More       3,762    0.47%           271,949       .69%

       June Totals:                      798,554                 $39,317,826



                           AUGUST 2006 VOYAGER PURCHASES
                                       Number of  Portion of    Net Purchase Portion of Total
                 Description            Records Total Records     Amount     Net Purchases
       Food Purchases                     1,114    0.13%        $      8,884      0.02%
       Unleaded Plus Purchases           24,096    2.90%             975,609      2.29%
       Unleaded Super Purchases          11,396    1.37%             463,340      1.09%
       Overfills of 1/2 gal. or More      3,934    0.47%             317,350       .75%

       August Totals:                  832,191                   $42,510,473

Although the listings of questionable charges represent small percentages of the total
transactions, they are relatively large numbers requiring significant effort to review. And
these are only a few of the detection criteria for identifying questionable charges
needing further review.

We also found little consistency between regions, and often within regions, on which
listings of questionable charges were generated and used, and on the thresholds for the
listings. For instance, we found some offices focused on stopping the purchase of
premium fuel, while others did not because they found it too time consuming and
unproductive. The same was true for high cost car washes and too many car washes,
and the number and dollar amounts allowed varied both within and between regions.
For the listing often considered most useful, “fills beyond fuel tank capacity,” thresholds
for acceptance ranged from zero to 5 gallons beyond the stated tank capacity.

Fleet personnel also expressed general frustration with charges shown as food
purchases because so many proved to be erroneous due to coding errors at the point of
sale. Our own use of the criteria used to develop questionable charges reports, but
covering longer spans of time led us to conclude that even those exception listings most
likely to identify invalid purchases included high numbers of valid purchases.

Although identification of small improper purchases, such as food transactions coded
correctly, does make customers aware Fleet is monitoring purchases, questioning them
about valid transactions does not foster good customer relations. Further, the volume of
purchases Fleet is experiencing along with its attempts to accomplish more with fewer



                                                   6
personnel necessitates an efficient process that places emphasis where losses are the
greatest.

We believe this can be done most effectively by focusing on the vehicles operating
outside the normal range of cost for the vehicle class. The Voyager billing database
Fleet now has in place makes this possible to a much greater extent than in the past,
and when Fleet completes its development of a database of DESC charges even more
accurate calculations of vehicle operating costs will be possible.

The major objection raised to relying on costs per mile and miles per gallon was an
inability to get accurate mileage calculations due both to customers inaccurately
reporting mileages, and to analysis being done on charges covering time frames that
were too short. The complaint about the accuracy of mileage reporting was similar to a
complaint we frequently encountered about transactions showing fills beyond tank
capacity-the tank capacities shown in Fleet’s computer system were incorrect.

We believe Fleet can greatly improve the accuracy of crucial data elements by focusing
on a limited number of criteria for identifying questionable charges. Customers
contacted about apparent high fuel consumption or high per mile costs caused by their
inaccurate mileage reporting can be expected to improve their reporting to avoid further
questioning. And if Fleet places emphasis on tank overfills as another of a limited
number of areas of focus, we believe it can expect the accuracy of the tank capacities
its employees load into the computer system to improve greatly.

Along with placing more emphasis on customers reporting mileage accurately, the
accuracy of fuel consumption calculations and per mile costs can be greatly improved
by using longer spans of time, such as rolling six or twelve month periods, as the basis
for calculations. The databases Fleet has established now make this possible.

Generating listings of questionable charges. Loss prevention was one of numerous
Fleet Management Center (FMC) and Fleet Service Representative (FSR)
responsibilities, and understanding how to generate listings of questionable charges
varied, along with beliefs in which listings were most important. Fleet is designating
individuals to focus more fully on loss prevention in the centrally coordinated loss
prevention program it is creating. These individuals will be in a position to critically
examine which listings of questionable charges are most important. We believe the
best way to ensure consistency in these listings and to allow field personnel to
effectively focus their efforts, is to assign a single office responsibility for running and
distributing the listings of questionable charges.

Resolution of questionable charges. Development and execution of a system to identify
vehicles operating outside the norm for their class can best be done centrally, but
evaluation of why the vehicles are operating outside the norm can best be done locally.
The FSRs and FMC managers are the individuals with first hand knowledge of their
customers’ needs and circumstances. They need to be involved in the determination of




                                             7
why vehicles are operating outside the norm both to ensure good customer relations
and accurate determination of the causes.

Recording resolution of questionable charges. The number of transactions Fleet
handles necessitates a means of recording evaluation decisions in an easily accessible
format and location. Fleet also needs a means of recording acceptable operating
ranges for vehicles legitimately operating outside the norm for their class to prevent
their being needlessly included in subsequent exception listings. These needs will
probably require the addition of a field or fields to the Vehicle File in Fleet’s computer
system, but we have no recommendation in this regard. The team currently developing
the national loss prevention program is in the best position to determine where and how
the information should be recorded.

Dry leases. One way to alleviate some of the difficulties inherent in Fleet’s issuance of
charge cards to its customers would be establishment of more dry leases. However, we
did not review this area in any depth. Consequently, we do not have a sense of
customers’ receptiveness to dry leases, how Fleet would handle maintenance and
repair payments if it retained responsibility for these areas, nor other problems inherent
in managing dry leases. Further, Fleet’s management stated overall customer costs are
higher for dry leases than for Fleet’s standard lease.

Recommendation

We recommend to the Commissioner, Federal Acquisition Service, that GSA Fleet:

      1.A  Continue development of a centrally coordinated loss prevention program
           that includes:
                   a. Identification of, and focus on, the most critical loss and abuse
                      detection methods;
                   b. Cognizant field personnel in the resolution of questionable
                      transactions; and
                   c. An effective method for tracking and recording resolution
                      activity.
Management’s Response

The Commissioner, Federal Acquisition Service, concurred with the finding and
recommendation in his response to the draft report. A copy of his response is provided
in Appendix A.




                                            8
Finding 2 – Assuring All Voyager Transactions Are Subject to Review

Fleet has established a database to record Voyager billed transactions to assure they
are subject to review, that also greatly improves Fleet’s ability to track vehicle operating
costs. However, the reconciliation process Fleet established to ensure the database
contains all the transactions listed in the Voyager invoices should be strengthened.

Fleet established the Voyager billing detailed transactions file in its computer system
shortly before we completed our audit. The file consists of daily billing records Voyager
sends directly to Fleet’s systems department. It contains additional data fields that are
not in the invoice file sent to the GSA finance office, but which Fleet finds useful for its
analysis of transactions. Fleet considered having the invoice format changed to include
the data, but found doing so would have been costly and time consuming. Fleet found
having Voyager send an electronic copy of the file from which each invoice is derived
directly to Fleet was a more cost effective alternative.

We reviewed the Voyager billing file and found that any transactions with license plate
numbers that did not match existing numbers in Fleet’s computer system were rejected
and not included in the database. The rejected transactions were posted as errors to
regional on-line reports in print format that could not easily be downloaded and
analyzed. To overcome this weakness, Fleet added a second file to its computer
system to list the rejected, or error transactions. This consolidated the rejected
transactions in one location in a format that can easily be downloaded and analyzed.

A potential weakness with listing the transactions in two files is that many of the
transactions in the error file prove to be valid transactions for new vehicles in the
process of being brought into the system or delayed bills for vehicles retired from use. If
the Voyager billing file is used in the future as a basis for determining total operating
costs for vehicles, it will not include the vehicles in the error file. Some means will be
needed to add the information for the valid transactions to the billing file information.
We have no formal recommendations regarding the newly established files, but believe
Fleet should keep this potential problem in mind as it moves forward.

A reconciliation process was established to ensure the files Fleet receives mirror the
invoices. The reconciliation is on total net purchase amount only. It is not an overly
strong reconciliation process, but may suffice as an interim procedure. If the process
can be changed to include record count as well dollar total, the process would provide
greater assurance the file mirrors the invoice. At a minimum, when the current contract
expires Fleet should either revise the specifications for the invoice format to include
sufficient data to use the detail records from the invoice for its reviews, or develop a
stronger reconciliation process to provide greater assurance the files mirror each other.




                                             9
Recommendation

We recommend to the Commissioner, Federal Acquisition Service that GSA Fleet:

      2.A    Strengthen its procedures for assuring all Voyager charges are subject to
             review.

Management’s Response

The Commissioner, Federal Acquisition Service, concurred with the finding and
recommendation in his response to the draft report. A copy of his response is provided
in Appendix A.


Internal Controls

Control weaknesses noted during the audit have been addressed in the report.




                                          10
                                            APPENDIX A


           AUDIT OF GSA FLEET’S
        LOSS PREVENTION PROGRAM
       FEDERAL ACQUISITION SERVICE
     REPORT NUMBER A060116/F/5/V07002

MANAGEMENT’S RESPONSE TO THE DRAFT REPORT




                    11
                                                                     APPENDIX B



                             AUDIT OF GSA FLEET’S
                          LOSS PREVENTION PROGRAM
                         FEDERAL ACQUISITION SERVICE
                       REPORT NUMBER A060116/F/5/V07002

                               REPORT DISTRIBUTION

                                                                         Copies

Commissioner, Federal Acquisition Service (Q)                               3

Assistant Commissioner, Office of Travel, Motor Vehicles, and Card
Services (QM)                                                               1

Director, GSA Fleet (FFF)                                                   1

Assistant Inspector General for Auditing (JA)                               3

Audit Follow-up and Evaluation Branch (BECA)                                1




                                           12
